OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SOUTHERN
AFRICA’S REGIONAL HIV/AIDS
PROGRAM IN BOTSWANA
AUDIT REPORT NO. 4-674-10-005-P
MAY 12, 2010




PRETORIA, SOUTH AFRICA
 Office of Inspector General


 May 12, 2010

 MEMORANDUM

 TO:                  USAID/Southern Africa, Mission Director, Jeffrey Borns

 FROM:                Regional Inspector General/Pretoria, Nathan S. Lokos /s/

 SUBJECT:             Audit of USAID/ Southern Africa’s Regional HIV/AIDS Program in Botswana
                      (Report No. 4-674-10-005-P)

 This memorandum transmits our final report on the subject audit. In finalizing our report, we
 considered your comments on our draft report and have included your response as appendix II.

 The report includes six recommendations for your action. On the basis of your comments,
 corrective action plans have been developed addressing the six recommendations. Therefore,
 we consider that management decisions have been reached on all of these recommendations.
 Please provide the Office of the Chief Financial Officer, Audit, Performance, and Compliance
 Division (M/CFO/APC), with the necessary documentation to achieve final action on the
 recommendations.

 I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
 during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

Are USAID/Southern Africa’s regional HIV/AIDS prevention and care activities in
Botswana reaching people with prevention interventions and providing care to both
persons suffering with HIV/AIDS and to orphans and vulnerable children as planned?

     Regional HIV/AIDS Program
     Management Status Not Defined ................................................................................ 4

     Program Results Not Fully Supported......................................................................... 6

     Performance Indicator Definitions Not
     Consistently Applied.................................................................................................... 8

     Performance Management Plan Not
     Completed................................................................................................................. 10

     Data Quality Assessments Not
     Completed................................................................................................................. 12

     Thorough Site Visits Not Conducted ......................................................................... 14

Evaluation of Management Comments ....................................................................... 16

Appendix I—Scope and Methodology......................................................................... 18

Appendix II—Management Comments........................................................................ 20

Appendix III— USAID/Southern Africa – Summary of Botswana
HIV/AIDS Prevention and Care Program Performance for Fiscal Year 2009 .......... 25
SUMMARY OF RESULTS
USAID/Southern Africa’s Regional HIV/AIDS Program in Botswana is a critical part of the
mission’s HIV/AIDS program. 1 The mission’s fiscal year (FY) 2009 HIV/AIDS Botswana
program included prevention and care activities that were implemented by the following
three partners: (1) Research Triangle Institute, which had a task order that covered the
period October 2008 to September 2013, (2) Project Concern International, which had a
cooperative agreement that covered the period September 2008 to September 2011, and
(3) Academy for Educational Development, which had a cooperative agreement that
covered the period July 2008 to February 2012. As of the end of FY 2009,
USAID/Southern Africa reported obligations of $10.7 million and disbursements of
$3.9 million for those three partners’ prevention and care activities (page 2).

Two main goals of the mission’s regional HIV/AIDS prevention and care activities in
Botswana are to (1) prevent transmission of HIV/AIDS by reaching people with
prevention interventions and (2) provide care to both persons suffering with HIV/AIDS
and to orphans and vulnerable children. Working through its implementing partners, the
mission is striving to achieve these goals by a variety of means, including the following:

     Promoting HIV/AIDS prevention through outreach and training

     Providing HIV-related palliative care 2 and training related to palliative care

     Serving orphans and vulnerable children and providing training related to caring for
      such children

     Training individuals in institutional capacity building and community mobilization
      (pages 2— 4)

The mission reached a significant number of people with its interventions during FY
2009, which was the first year of these activities. For example, at least 4,817 individuals
were reached with HIV/AIDS prevention messages and at least 274 orphans and
vulnerable children received care during FY 2009. However, because of problems with
data quality, it was not possible to determine whether USAID/Southern Africa’s Regional
HIV/AIDS Program in Botswana had provided individuals with planned levels of
prevention and care services (page 4).

USAID/Southern Africa needs to strengthen its program by clarifying management
authority and responsibility for the Regional HIV/AIDS Program, training the staff of
prevention and care service providers, developing a complete performance management
plan, and requiring that mission staff perform and document adequate data quality
assessments and site visits (pages 4–15).

In response to the draft report, USAID/Southern Africa agreed with all six
recommendations, reaching a management decision on each one of those
recommendations.



1
    HIV/AIDS—human immunodeficiency virus/acquired immunodeficiency syndrome.
2
    Palliative care focuses on reducing the severity of disease symptoms.
                                                                                         1
BACKGROUND
Combining $18.8 billion in funding and an integrated approach that includes prevention,
treatment, and care, the U.S. Government’s HIV/AIDS program 3 has supported
antiretroviral treatment for a reported 2.1 million people and care for more than a
reported 10.1 million through September 2008. To build on these achievements,
legislation was passed in July 2008 4 to extend the HIV/AIDS program and authorize up
to $48 billion over the next 5 years to continue the Government’s global efforts against
HIV/AIDS, tuberculosis, and malaria.

Botswana, one of the 15 focus countries under the HIV/AIDS program, 5 has the world’s
second highest HIV/AIDS prevalence rate. The Office of the Global AIDS Coordinator
reported in 2008 that, according to U.N. estimates, 24.1 percent of adults aged 15 to 49
were HIV positive. The number of adults living with AIDS was approximately 270,000,
and 14,000 children younger than 15 were infected with HIV. According to the Botswana
2006 HIV Sentinel Surveillance data, the HIV infection rate among pregnant women
aged 15 to 49 was 32.4 percent. A growing problem of orphans and vulnerable children
was also reported. The United Nations estimated that 120,000 children had been
orphaned by HIV/AIDS. With so many people either infected or affected in other ways
by HIV/AIDS, the epidemic is not only a severe health crisis, but also a threat to the
future development of the country.

The Government of Botswana has made extensive progress in combating HIV/AIDS, an
effort that USAID/Southern Africa’s program intends to strengthen and expand.
Prevention activities in Botswana include (1) prevention of mother-to-child transmission
of HIV; (2) prevention of sexual transmission through abstinence, being faithful, and
other prevention intervention programs; (3) blood safety and infection safety for medical
transmission prevention; and (4) other prevention activities. All prevention activities
attempt to link with treatment and care programs as much as possible.

Care activities include activities to strengthen training in community and home-based
palliative care and to strengthen community organizations and nongovernmental
organizations. Capacity building of health care providers also incorporates expanding
care to patients with tuberculosis. Activities under the care component also address the
needs of orphans and vulnerable children. These activities include the development of
guidelines for providing care and support to children, as well as increased support to
affected children.

The mission reported obligations of $10.7 million and disbursements of $3.9 million to fund
its Botswana HIV/AIDS activities in FY 2009.           The program consisted of three
implementing partners and their respective service providers under a variety of

3
  This program is commonly referred to as the President’s Emergency Plan for AIDS Relief
(PEPFAR).
4
  Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (Public Law 110–293).
5
  The 15 focus countries consist of 12 countries in Africa (Botswana, Côte d’Ivoire, Ethiopia,
Kenya, Mozambique, Namibia, Nigeria, Rwanda, South Africa, Tanzania, Uganda, and Zambia)
and 3 other countries (Guyana, Haiti, and Vietnam).

                                                                                            2
agreements. Research Triangle Institute was awarded a task order with a period of
performance from October 2008 to September 2013. Project Concern International was
awarded a cooperative agreement with a period of performance from September 2008 to
September 2011. Academy for Educational Development was awarded a cooperative
agreement with a period of performance from July 2008 to February 2012.

AUDIT OBJECTIVE
The Office of Inspector General conducted this audit as part of its FY 2010 audit plan to
answer the following questions:

   Are USAID/Southern Africa’s regional HIV/AIDS prevention and care activities in
   Botswana reaching people with prevention interventions and providing care to
   both persons suffering with HIV/AIDS and to orphans and vulnerable children as
   planned?

Appendix I contains a discussion of the audit’s scope and methodology.




           Map of Botswana (Source: USAID/Southern Africa)




                                                                                       3
AUDIT FINDINGS
Are USAID/Southern Africa’s regional HIV/AIDS prevention and
care activities in Botswana reaching people with prevention
interventions and providing care to both persons suffering with
HIV/AIDS and to orphans and vulnerable children as planned?
USAID/Southern Africa’s regional HIV/AIDS prevention and care activities in Botswana
have reached significant numbers of people with prevention and care services during FY
2009, which was the first year of these activities. For example, one service provider
receiving USAID funding had reached 4,817 individuals with HIV/AIDS prevention
messages in FY 2009. Another service provider had cared for 274 orphans and
vulnerable children during that same fiscal year. Nevertheless, because of the poor
overall quality of performance data, it was not possible to determine whether
USAID/Southern Africa’s regional HIV/AIDS prevention and care activities in Botswana
reached the planned number of people with prevention interventions or provided
appropriate care to the planned number of people, including orphans and vulnerable
children (OVC).

USAID/Southern Africa’s Regional HIV/AIDS Program in Botswana began by
establishing service providers that were capable of furnishing prevention and care
services to beneficiaries. By the end of FY 2009, implementing partners reported that 22
service providers were offering those services, a significant component of the overall
prevention and care program. The service providers supported by the mission also
represent an important contribution to the Government of Botswana’s National
Treatment Plan.

Although USAID/Southern Africa has reached a significant number of people with its
interventions, the mission can further strengthen its program in several areas by (1)
establishing its Regional HIV/AIDS Program’s management authority and responsibility,
(2) improving the validity and reliability of reported results, (3) preparing a complete
performance management plan that includes all of its performance indicators and
provides for data quality testing, (4) completing thorough data quality assessments, and
(5) conducting thorough site visits. These areas are discussed below.

Regional HIV/AIDS Program
Management Status Not Defined

  Summary: Contrary to good internal control practices, the management status of
  USAID/Southern Africa’s Regional HIV/AIDS Program office was not adequately
  defined. The principal cause was a prior reorganization of USAID offices and
  responsibilities that was not properly documented or implemented. Consequently,
  USAID/Southern Africa did not have a clear understanding of the authority and
  responsibilities delegated to its Regional HIV/AIDS Program in Botswana, which led
  to inadequate internal control over monitoring program results.




                                                                                       4
The Government Accountability Office (GAO) Standards for Internal Control in the
Federal Government states that a factor affecting an agency’s control environment is the
agency’s organizational structure. The structure provides management’s framework for
planning, directing, and controlling operations to achieve agency objectives. A good
internal control environment requires that the agency’s organizational structure clearly
define key areas of authority and responsibility and establish appropriate lines of
reporting. The control environment is also affected by the manner in which the agency
delegates authority and responsibility throughout the organization. This delegation
covers authority and responsibility for operating activities, reporting relationships, and
authorization protocols.

Contrary to these internal control principles, the management status of USAID/Southern
Africa’s Regional HIV/AIDS Program has not been adequately defined. Through its
Regional HIV/AIDS Program (RHAP) office, USAID/Southern Africa provides funding for
HIV/AIDS services to the limited-presence countries of Botswana, Lesotho, and
Swaziland, which do not have a USAID mission in country. In a prior audit 6 concerning
RHAP’s activities in these countries, the Regional Inspector General/Pretoria
(RIG/Pretoria) recommended that USAID/Southern Africa correct poor data quality by
establishing a monitoring program for its HIV/AIDS activities in Botswana. The mission
responded to the recommendation by stating that as of 2007 RHAP would be
participating in neither the reporting process nor the management of the Botswana
HIV/AIDS activities. In place of the mission, the Botswana Task Force Team would be
responsible for the program. As evidence for final action to close the recommendation,
the mission provided a memo from the acting regional director for the now closed USAID
regional office in Botswana confirming that the Task Force Team would be responsible
for the program. However, this organization was never created.

Consequently, RHAP’s management responsibility for Botswana HIV/AIDS activities has
been undefined since 2007. The RHAP office’s regional organizational structure for
Botswana does not clearly define key areas of authority and responsibility and does not
establish appropriate lines of reporting or authority and responsibility for operating
activities, reporting relationships, or authorization protocols. As a result, the internal
control structure over monitoring program results was never strengthened as
recommended by the 2007 audit report. This is demonstrated by the data quality
problems discussed later in this report, which might have been avoided had an adequate
organizational structure been in place.           Rather than reopen the 2007 audit
recommendation, this audit makes the following recommendation to define the
management structure for the HIV/AIDS program in Botswana.

    Recommendation No. 1: We recommend that USAID/Southern Africa define, in
    writing, the respective authorities, responsibilities, and reporting structure for its
    Regional HIV/AIDS Program office and its Botswana-resident country director
    and staff.




6
 “Audit of USAID Activities in Limited-Presence Countries Managed by USAID/South Africa,”
Audit Report No, 4-674-07-004-P, February 14, 2007.


                                                                                             5
Program Results
Not Fully Supported

    Summary: Contrary to USAID guidance, HIV/AIDS program results were not fully
    supported with adequate documentation. The principal causes were inadequate
    record-keeping and reporting systems, resulting from a lack of training, as well as
    weak internal control over monitoring program results.               Consequently,
    USAID/Southern Africa did not always have reasonable assurance that intended
    results were being achieved or that managers had reliable information upon which
    to make sound performance-based decisions.

USAID’s results-oriented approach to management calls for its managers to consider
performance information when making decisions. Sound decisions require accurate,
current, and reliable information, and the benefits of USAID’s results-oriented approach
depend on the quality of performance information available. 7 Additionally, the GAO
Standards for Internal Control in the Federal Government requires accurate and timely
recording of all transactions and significant events. These standards also require that
transactions and significant events be clearly documented, with the documentation
readily available.

Despite these provisions, the program’s data quality and reporting could be
strengthened considerably. Specifically, the key results reported for prevention and care
were not fully supported by source documents. For example, at least 4,303 out of
24,432 individuals reportedly reached with prevention messages were either not
supported by any form of documentation or were documented through headcounts,
rather than lists of message recipients. Furthermore, at least 1,850 out of 3,835 OVC
reportedly supported by USAID were not adequately documented. 8 These examples are
detailed below:

    FY 2009 prevention results reviewed were not fully supported by adequate
     documentation. The chief reason was the use of headcounts as supporting
     evidence. Although the audit team considered this practice acceptable for certain
     high-risk populations, such as sex workers and illegal residents, other groups were
     supported only by notes from service provider volunteers stating that 200 people
     were reached or by documents from school interventions that disaggregated the
     audience by gender and were signed by the school’s principal. The audit team
     selected and reviewed the support for a judgmental sample at a significant portion of
     service providers, and determined that about 17 percent of the sample related to
     populations that were not high risk was supported only by undocumented
     headcounts. Other documentation issues involved lack of supporting records. For
     example, one provider lacked records to support 353 out of 6,510 individuals
     reported (5 percent). Another 1,340 of the 6,510 individuals reported (21 percent)
     were supported only by headcounts.




7
  USAID’s “Guidelines for Indicator and Data Quality” (TIPS No. 12).
8
  The audit reviewed service providers whose results made up 84 percent and 94 percent of the
total reported results for prevention and OVC support, respectively.


                                                                                           6
   FY 2009 care and support results reviewed were not fully supported by adequate
    documentation. For example, at only one of the nine service providers reviewed
    were the records within 10 percent of their reported number of OVC supported in
    FY 2009. Additionally, complete records that identified the individual child, the
    services provided, and the dates of those services were lacking at seven of the nine
    service providers reviewed. For example, at one provider, there were adequate
    documents to support only 111 out of a reported 767 children (15 percent) receiving
    OVC services. Another provider, which reported 139 individuals receiving palliative
    care, had lost 6 months (50 percent) of its care records and had no audit trail with
    which to reconstruct those records. Consequently, the audit team could not
    determine the degree to which reported amounts were misstated.

   When the U.S. Government HIV/AIDS staff in Botswana compiled the data for the
    annual HIV/AIDS progress report, there was a breakdown in communication between
    the RHAP team and other U.S. Government staff that led to the results from two
    implementing partners not being reported. During FY 2009, two organizations
    transitioned from being service providers to being implementing partners.
    Accordingly, their results were not included in the annual report of the partner
    previously responsible for the two service providers. However, the U.S. Government
    staff compiling the annual report for Botswana believed that the data had been
    included in that annual report. Consequently, the results for Botswana forwarded for
    inclusion in the annual HIV/AIDS progress report excluded 1,380 adults who were
    reported as having received palliative care and 1,406 OVC that were reported as
    having received support.

As a result of the above deficiencies, there was no reasonable assurance that the results
reported by the two major prevention and care partners for their respective service
providers were valid and reliable and met required data quality standards.

These data problems occurred because the staff at some of the service providers, which
consisted of local nongovernmental organizations, lacked sufficient training and were not
aware of data quality, record-keeping, and reporting requirements. Because of this lack
of knowledge, service providers did not maintain adequate source documentation to
ensure that reported results were valid, reliable, and accurately reported to implementing
partners and ultimately to the mission. An incomplete performance management plan,
as well as incomplete data quality assessments and site visits that did not include data
verification (discussed later in this report), also contributed to the unsupported results.

As indicated in the examples above, USAID/Southern Africa did not always have
reasonable assurance that reported data met standards of validity, reliability, and
accuracy. Without reliable data, USAID managers are missing a key tool for making
sound, performance-based decisions. The following recommendation is designed to
strengthen the system of reporting results under USAID/Southern Africa’s Regional
HIV/AIDS Program in Botswana.

    Recommendation No. 2: We recommend that USAID/Southern Africa develop
    and implement a plan, with milestones, to train all implementing partners and
    service providers for prevention and care services on how to properly maintain
    source documents and accurately report program results.




                                                                                         7
            Exterior of OVC facility inspected during the audit in Palapye, Botswana (photo
            taken by implementing partner in October 2007).


Performance Indicator Definitions
Not Consistently Applied

     Summary: Contrary to USAID guidance, performance indicator definitions were not
     consistently applied by several service providers when reporting results. The
     principal cause was a lack of training, as well as weak internal control over
     monitoring program results. Consequently, USAID/Southern Africa did not always
     have reasonable assurance that intended results were being achieved or that
     managers had reliable information upon which to make sound performance-based
     decisions.

USAID’s results-oriented approach to management calls for its managers to consider
performance information when making decisions. Sound decisions require accurate,
current, and reliable information, and the benefits of USAID’s results-oriented approach
depend on the quality of performance information available. 9

To be valid, an indicator must accurately reflect the performance element that it purports
to measure. This requirement is recognized by both USAID’s Automated Directives
System (ADS) and the Guidelines for Indicator and Data Quality. ADS 10 states that
indicators selected for inclusion in the performance management plan should measure
changes that are clearly and reasonably attributable, at least in part, to USAID. The
Guidelines for Indicator and Data Quality states that one of the critical requirements for
an indicator is the degree to which it and the related data accurately reflect the process

9
    USAID’s “Guidelines for Indicator and Data Quality” (TIPS No. 12).
10
    ADS 203.3.4.2.


                                                                                              8
the indicator is being used to measure. The guidelines further explain that “validity”
refers to data that clearly and directly measure the result they are intended to measure;
“reliability” refers to data that have a stable or consistent measuring process; and
“timeliness” refers to data that are sufficiently up-to-date to be useful in decision making.

In addition to the above, it is important that performance information be recorded and
documented. The GAO Standards for Internal Control in the Federal Government
requires accurate and timely recording of all transactions and significant events. These
standards also require that transactions and significant events be clearly documented,
with the documentation readily available.

Four of USAID/Southern Africa’s results were not accurately reported by several service
providers and in turn, by the mission’s two major implementing partners. These
inaccuracies arose because of inconsistent and inaccurate application of performance
indicator definitions, which resulted in the reporting of individuals who did not qualify
under the various results. These problems are summarized below.

   Prevention – One service provider had difficulty classifying whether its prevention
    messages were abstinence only, abstinence and being faithful, or other prevention
    methods. On some occasions the service provider used a mixed message that was
    predominantly abstinence and being faithful, but also mentioned some other
    prevention methods. On these occasions, the service provider was uncertain as to
    how much discussion of other prevention methods would change the classification of
    the intervention. However, it was difficult to determine the correct classification
    because in many cases there was no documentation of the type of intervention
    message used. For example, the support provided by the service provider identified
    only 52 out of 378 individuals as having been reached with an “other prevention
    methods” message, while the type of intervention message directed at the other
    individuals was not noted. As a result, the correct classification for messages that
    reached those 326 individuals could not be determined.

   Care – Contrary to established guidance, three service providers stated that they
    counted OVC or palliative care patients as new if they received a service they had
    not received in the prior quarter. The indicator definition, however, specifies that a
    patient should be counted only once during a year. When the audit team
    judgmentally selected eight records that were listed as being for new children in the
    fourth quarter of FY 2009, three were for children who had received services from
    the provider earlier in FY 2009 but had not received any services in the third quarter
    of FY 2009. Because these children were counted earlier in the year and counted
    again in the fourth quarter, they were double-counted in the annual reporting.

   Care Training – One service provider reported the same 106 trainees under both
    OVC and palliative care training for the same training session. Another provider
    reported 250 people trained but had class attendance records for only 79 (32
    percent).

   Prevention Training – Two service providers improperly reported people trained
    who did not complete every day of multiday courses. Of the 34 people reported as
    trained, documentation indicated that 13 (38 percent) did not complete all training
    sessions.



                                                                                           9
As a result of these significant variances, there is not reasonable assurance that the
results reported by implementing partners were valid and reliable and met required data
quality standards.

These data problems occurred because the staff at the service providers and
implementing partners lacked proper training. Also, an incomplete performance
management plan, as well as incomplete data quality assessments and site visits
(discussed later in this report), resulted in weak internal control. The service providers,
consisting of several types of local nongovernmental organizations, were not always
aware of record-keeping and reporting requirements. With inadequate records and
inconsistent and undocumented reporting systems, internal control for results reporting
could not ensure that reported results were (1) valid, (2) accurate and supported, (3)
accurately summarized before being reported to the mission, and (4) attributable to the
specific performance indicator.

Without accurately reported results, USAID/Southern Africa could not reasonably ensure
that reported data met standards of validity, reliability, and timeliness. Moreover, without
reliable data, USAID officials and others may not be able to make optimal performance-
based decisions. For these reasons, this audit makes the following recommendation to
strengthen the results reporting system under the mission’s HIV/AIDS program in
Botswana.

   Recommendation No. 3: We recommend that USAID/Southern Africa develop
   and implement a plan, with milestones, to train all implementing partners and
   service providers for prevention and care services in the Botswana HIV/AIDS
   program on how to correctly apply performance indicator definitions when
   collecting, summarizing, and reporting program results.

Performance Management
Plan Not Completed

  Summary: The RHAP performance management plan did not include the
  performance indicators for the Botswana HIV/AIDS program, contrary to USAID
  guidance. The mission attributed this problem to staffing constraints and the rapid
  expansion of the program, as well as to uncertainty over management
  responsibility. Without a complete plan to provide for adequate data quality,
  USAID/Southern Africa could not ensure that it was maintaining the elements
  essential to the operation of a credible and useful performance-based management
  system.

ADS 203.3.3 states that assistance objective teams must complete performance
management plans for each assistance objective. ADS 203.3.3.1 indicates that such
plans must (1) identify the performance indicators that will be tracked; (2) specify the
source, method of collection, and schedule of collection for all required data; and (3)
assign responsibility for collection to a specific office, team, or individual. Furthermore,
USAID’s Performance Management Toolkit states that a complete performance
management plan contains a statement of all performance indicators that will be used to
assess progress over the life of the strategic objective.             Baseline values and



                                                                                         10
performance targets for each indicator should also be included, with specifications for
the various data sources and collection methods to be employed. In addition to these
requirements, the plan should include specifications for the schedule for data collection
and a description of known data limitations.

The goal of assessing data from implementing partners is for missions to be aware of
data strengths and weaknesses and of the extent to which data can be trusted when
reporting and making management decisions. For data from implementing partners, the
primary source used by managers of USAID/Southern Africa’s Botswana HIV/AIDS
activities, the Toolkit recommends that performance plans include periodically sampling
and reviewing data for completeness, accuracy, and consistency. It also recommends
conducting field visits to compare central office records with field site records, and
visiting a broad range of sites.

In support of the above, USAID/Southern Africa’s mission order on Performance
Management and Evaluation 11 states that each strategic objective team (now referred to
as assistance objective teams) is responsible for developing, implementing, and
obtaining approval for a performance management plan. This task includes choosing
indicators, setting targets, planning and budgeting for data collection, collecting baseline
data, and tracking and analyzing data on progress toward results. Furthermore, the
mission order states that the performance management plan should be modified as
necessary during implementation, and that strategic objective teams should review the
plan at least semiannually.

Notwithstanding the above requirements, the RHAP performance management plan did
not contain the program performance indicators for the Botswana HIV/AIDS program. In
addition to being dated 2005, the plan contained only regional-level indicators, with no
indicators for the activities in Botswana. Without the performance indicators and their
respective reference sheets, the plan lacked the basic format for outlining the monitoring
controls to manage the program’s individual activities as well as a description of controls
for maintaining adequate data quality from implementing partners, which were the
primary sources of program data. In the absence of a complete performance
management plan, RHAP simply assumed that the data in partner reports were of
adequate quality, and did not provide the necessary controls for confirming data quality.

The mission indicated that these omissions in its performance management plan for
Botswana arose from a staff shortage and the program’s rapid expansion.
USAID/Southern Africa officials said that the mission could not comply with all ADS
requirements because it was responsible for the rapid scale-up of a large and complex
portfolio, merging its original portfolio with that of the former regional mission in
Botswana, with a limited staff. Mission officials noted that there was also some
uncertainty regarding management responsibility for the Botswana program, as
discussed earlier in this report. The mission has since hired new staff members and is
requesting two additional staff positions for FY 2010 for the Botswana program.

Without a complete performance management plan that provided all performance
indicators, indicator reference sheets, and data quality testing for all program indicators,
USAID/Southern Africa did not have reasonable assurance that program data met
acceptable standards of validity, reliability, and accuracy. In the absence of such

11
     Mission Order 203.1, “Performance Management and Evaluation,” pars. III.B and IV.A.2.


                                                                                             11
assurance, managers did not have all of the high-quality performance information
needed to make sound decisions. Had the mission maintained a complete and current
plan for the HIV/AIDS activities and regular data quality testing in Botswana, many of the
data problems identified in the report could have been prevented or reduced. For these
reasons, this report makes the following recommendation to strengthen the results
reporting system for USAID/Southern Africa’s HIV/AIDS program in Botswana.

      Recommendation No. 4: We recommend that USAID/Southern Africa prepare an
      updated performance management plan for the Botswana HIV/AIDS program
      that is complete and that contains all current performance indicators and
      reference sheets.

Data Quality Assessments
Not Completed

     Summary: Contrary to USAID guidance, data quality assessments were not
     completed for the Botswana HIV/AIDS program. This problem arose from weak
     internal control and staffing constraints, as well as from uncertainty over
     management responsibility. As a result, data quality problems were not identified,
     leaving USAID/Southern Africa without reasonable assurance that officials had the
     high-quality data necessary for making sound, performance-based decisions.

USAID’s ADS 203.3.5.2 states that the purpose of data quality assessments is to ensure
that the USAID mission/office and assistance objective teams are aware of (1) the
strengths and weaknesses of the data, as determined by applying appropriate quality
standards, and (2) the extent to which data integrity can be trusted to influence
management decisions. ADS also states that data reported to USAID/Washington in
compliance with the Government Performance and Results Act of 1993 (Public
Law 103–62) or for reporting externally on USAID performance must have had a data
quality assessment within 3 years before submission.

USAID’s Performance Management Toolkit elaborates on this statement, adding that
missions should determine whether there are procedures to (1) ensure that data are free
of significant error or bias; (2) periodically review data collection, maintenance, and
processing; and (3) provide for periodic sampling and quality assessment of data. To
assess the quality of partner data, the Toolkit recommends periodically sampling and
reviewing partner data to ensure completeness, accuracy, and consistency and
determining whether the partner appropriately addressed known data quality problems.
To monitor whether implementation is on track toward expected results, missions can
use field visits, data from other sources, and independent surveys or evaluations to
ensure acceptable data quality. According to ADS, missions should assess whether
reports accurately reflect performance in the field. All assessments should be
documented and available.

USAID/Southern Africa’s mission order on performance management and evaluation 12 is
consistent with the above guidance. It states that all performance indicators reported in
the annual report must have had a data quality assessment within the past 3 years. It

12
     Mission Order 203.1, “Performance Management and Evaluation,” par. IV.A.3.


                                                                                          12
continues by stating that the assessments must also review data collection, maintenance
and processing procedures to ensure that they are adequate and are consistently
applied.




         Interior of OVC facility inspected during the audit in Palapye, Botswana
         (photo taken by implementing partner in October 2007).



USAID/Southern Africa has not completed any data quality assessments for the
performance indicators in its Botswana HIV/AIDS program. For the program beginning
in FY 2004, the mission had been reporting results for 6 years without performing the
required assessments. Although one of the implementing partners had done a review of
data quality for its respective indicators, RHAP did not analyze the review to determine
whether it was adequate to serve as a data quality assessment. As a result of these
omissions, data validity and reliability problems were not identified or addressed before
the mission reported results for its prevention and care indicators.

The mission stated that this problem resulted from program staffing constraints as well
as the program’s rapid expansion. According to mission officials, they were unable to
comply with all ADS requirements because the limited staff had responsibility for a large
portfolio implemented at a national level. There was also some uncertainty regarding
management responsibility for the program, as discussed earlier in the report. RHAP
has since hired new staff members and is requesting two additional staff positions for
FY 2010 for the Botswana program. RHAP is considering adding an implementing
partner to the program to conduct data quality assessments.

Without adequate testing for data integrity, USAID/Southern Africa did not have
reasonable assurance that data used for performance-based decision making and
reporting were valid and reliable. Unreliable data can undermine the appropriateness of
management decisions and managers’ ability to evaluate the effectiveness and



                                                                                      13
efficiency of their programs. Had the mission performed adequate data quality
assessments in a timely manner and addressed the data integrity problems identified in
those assessments, the problems of data validity and reliability identified in this report
could have been corrected. For these reasons, this report makes the following
recommendation.

      Recommendation No. 5: We recommend that USAID/Southern Africa complete
      data quality assessments for the HIV/AIDS program indicators in Botswana in
      accordance with Automated Directives System requirements.

Thorough Site Visits
Not Conducted

     Summary: Contrary to USAID guidance, USAID/Southern Africa did not conduct
     thorough site visits at its implementing partner and service provider locations in
     Botswana. The mission attributed this problem to a staff shortage and the priority
     placed on program implementation, as well as to uncertainty over management
     responsibility. Without active monitoring and thorough site visits, the mission did
     not always have reasonable assurance that data used for performance-based
     decision making and reporting were valid and reliable.

ADS 202.3.4.6 states that assistance objective teams must ensure that they have
adequate official documentation on agreements used to implement USAID-funded
projects, as well as on the resources expended, issues identified, and corrective actions
taken. Furthermore, ADS 202.3.6 states that monitoring the quality and timeliness of
implementing partners’ outputs is a major task of cognizant technical officers (now
referred to as “contracting officer’s technical representatives”) and assistance objective
teams. ADS specifies that problems in output quality provide an early warning that
results may not be achieved as planned and that early action in response to problems is
essential in managing for results. Additionally, a USAID/Southern Africa mission order 13
states that strategic objective teams (now referred to as assistance objective teams) are
responsible for monitoring and verifying the accuracy of reported results by regularly
conducting site and field visits to review data collection and documentation at its source.

To assess the quality of partner data, USAID’s Performance Management Toolkit
recommends periodically sampling and reviewing partner data to ensure completeness,
accuracy, and consistency, as well as determining whether the partner appropriately
addressed known data quality problems. The Toolkit also recommends developing a
simple site-visit guide, covering all topics of interest, to be used systematically by teams
visiting all sites.

Although the HIV/AIDS team had conducted some site visits in Botswana, it did not have
documentation to show that data validity and reliability had been verified during those
visits. Moreover, the site visits were programmatic in nature and did not address data
issues. This was a crucial omission for implementing partners and their service
providers that had not maintained adequate record-keeping and reporting systems.
According to RHAP officials, the absence of data quality testing and the documentation

13
     Mission Order 203.1, “Performance Management and Evaluation,” par. III.B.


                                                                                           14
thereof resulted from staffing constraints during FY 2009 and the program’s rapid
expansion. Site visits during that period focused exclusively on activity implementation
and the examination of quality of services provided, but also should have provided for
data quality testing. Additionally, there was some uncertainty regarding management
responsibility for the program, which was discussed earlier in the report. RHAP has
since hired new staff members and is requesting two additional staff positions for
FY 2010 for the Botswana program.

Without active monitoring through regular site visits and data verification,
USAID/Southern Africa did not always have reasonable assurance that data used for
performance-based decision making and for reporting were valid and reliable. A
program to monitor data quality through regular site visits could have identified
documentation and reporting issues and prevented many of the problems with data
reliability identified in this report. Therefore, this report makes the following
recommendation to improve the data-monitoring capacity of site visits.

   Recommendation No. 6: We recommend that USAID/Southern Africa develop
   and implement a risk-based monitoring plan for its Botswana HIV/AIDS activities
   that includes regular site visits involving programmatic review, verification of
   reported results, and the documentation of site visits performed.




                                                                                      15
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft version of this report, the mission concurred with all six
recommendations. The mission described the actions it plans to take to address the
noted concerns. The mission’s comments and the audit team’s evaluation of those
comments are summarized below.

In response to recommendation no. 1, concerning the definition, in writing, of the
respective authorities, responsibilities, and reporting structure for its Regional HIV/AIDS
Program office and its Botswana-resident country director and staff, the mission will
develop and issue a formal delegation of authority. This delegation will be from the
USAID/Southern Africa Mission Director to the Botswana-resident country director and
will set forth in detail the roles, responsibilities, authorities and reporting requirements,
and structure between USAID/Southern Africa and the USAID office in Botswana. The
mission intends to issue this delegation of authority not later than July 31, 2010. As a
result of these planned actions, a management decision has been reached on the
recommendation.

In response to recommendation no. 2, concerning a plan to train all implementing
partners and service providers for prevention and care services on how to properly
maintain source documents and accurately report program results, the mission secured
the services of MACRO International in February 2010 to train all HIV/AIDS project
managers, including USAID-funded staff in Botswana, in data quality assessments. The
2-week course included training on proper maintenance of source documents and
accurate reporting of program results. Having now received this training, the USAID
staff in Botswana is developing a training plan for implementing partners that will specify
the standards for maintaining documentation and accurately reporting program results.
The mission expects that the plan will be fully developed by July 2010, and training will
be completed by the end of calendar year 2010. As a result of these planned actions, a
management decision has been reached on the recommendation.

In response to recommendation no. 3, concerning a plan to train all implementing
partners and service providers for prevention and care services in the Botswana
HIV/AIDS program on how to correctly apply performance indicator definitions when
collecting, summarizing, and reporting program results, the mission secured the services
of MACRO International in February 2010 to train all HIV/AIDS project managers,
including USAID staff in Botswana, in data quality assessments. The 2-week course
included training on how to correctly apply performance indicator definitions when
collecting, summarizing, and reporting program results. Following this training, all of the
HIV/AIDS implementing partners working in treatment, care, and support attended a 2-
day meeting on March 25–26, 2010, for an in-depth review of the new HIV/AIDS
indicators that have been selected for use by USAID and the Botswana HIV/AIDS team.
This same exercise is planned for HIV/AIDS implementing partners that work in the
prevention area. The mission expects the plan to be fully developed by July 2010, and
training to be completed by the end of calendar year 2010. As a result of these planned
actions, a management decision has been reached on the recommendation.


                                                                                          16
In response to recommendation no. 4, concerning the preparation of an updated
performance management plan for the Botswana HIV/AIDS program that is complete
and that contains all current performance indicators and reference sheets, the mission is
preparing a new plan that contains all current HIV/AIDS performance indicators and
reference sheets.       The plan also will incorporate other procedures that are
recommended in this report. The mission expects that the plan will be fully developed by
July 2010, and will be in use by the end of calendar year 2010. As a result of these
planned actions, a management decision has been reached on the recommendation.

In response to recommendation no. 5, concerning the completion of data quality
assessments for the HIV/AIDS program indicators in Botswana in accordance with
Automated Directives System requirements, the mission has already provided training in
assessing data quality to mission staff and some implementing partners. In addition to
providing funding for additional technical assistance and training in conducting data
quality assessments, the Botswana Country Operational Plan for FY 2010 includes
funding for a USAID/Southern Africa team to conduct data quality assessments of
USAID implementing partners in Botswana.            This exercise is included in the
performance management plan, which is under development. The data quality
assessment will assess the new HIV/AIDS performance indicators that were officially
changed in October 2009. The mission anticipates that the plan will be fully developed
by July 2010, and fully completed, including the additional data quality assessment to be
carried out by USAID/Southern Africa, by the end of calendar year 2010. As a result of
these planned actions, a management decision has been reached on the
recommendation.

In response to recommendation no. 6, concerning a plan for its Botswana HIV/AIDS
activities that includes regular site visits involving programmatic review, verification of
reported results, and the documentation of site visits performed, the mission is currently
preparing a performance management plan that contains all new HIV/AIDS performance
indicators and reference sheets. The plan will include a site visit schedule for
programmatic review, verification of reported results, and the documentation of site visits
performed. USAID/Southern Africa expects that the plan will be fully developed by July
2010 and fully operational by the end of calendar year 2010. As a result of these
planned actions, a management decision has been reached on the recommendation.




                                                                                        17
SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions, based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objective. The audit covered the period October 1, 2008, through September 30,
2009. Audit fieldwork was conducted at USAID/Southern Africa’s offices in Botswana from
November 17 to December 4, 2009.

In planning and performing the audit, the audit team assessed management controls
related to management review, proper execution of transactions and events, and review of
performance measures and indicators. Specifically, we studied and evaluated the
following:

   FY 2008 country operational plan

   FY 2005 performance management plan

   FY 2009 annual progress report

   2009 certification required by the Federal Managers’ Financial Integrity Act of 1982

   Implementing partner agreements

   Performance measures for performance indicators

   Actual performance results

   Site visit reports

   Implementing partner progress reports

   Service outlet registers and source documents

We also interviewed key USAID/Southern Africa personnel, implementing partners, service
providers, and U.S. Government program partners.              We conducted the audit at
USAID/Southern Africa’s Botswana office and at the activity sites of two major
implementing partners, as well as those of local service providers.

As of September 30, 2008, USAID/Southern Africa’s prevention and care programs had
agreements with three partners. We focused primarily on the agreements with Project
Concern International and Academy for Educational Development because, although
Research Triangle Institute had an agreement in FY 2009, it did not contribute to the
reported results for FY 2009. This occurred because Research Triangle Institute was not

                                                                                           18
                                                                              APPENDIX I


registered by the Government of Botswana until 6 months into FY 2009, preventing it from
opening a bank account or opening an office until the second half of the fiscal year. As of
the end of FY 2009, USAID/Southern Africa reported obligations of $10,654,248 and
disbursements of $3,875,069 for the three agreements. Our audit primarily focused on the
agreements with Project Concern International and Academy for Educational Development,
which had combined reported obligations of $7,840,748 and disbursements of $2,945,534.

Methodology
To answer the audit objective, we reviewed the targeted and actual results in the
FY 2008 operational plan and the FY 2009 annual progress report. At USAID/Southern
Africa, the prevention and care programs reported on 12 major performance indicators in
the FY 2009 annual progress report, 8 of which are summarized in Appendix III. We did
not audit 4 of the 12 major performance indicators because of time constraints and the
lesser significance of those indicators.

For the remaining indicators, we validated performance results and compared reported
information with documented results for a judgmentally selected sample of results
submitted by the two major implementing partners for FY 2009 (a statistical sample was
not performed because of the large number of beneficiaries and the extensive
geographical dispersion of the sites). This judgmental sample consisted of 16 of 22
reported service providers, and included service providers that were (1) both large and
small providers, (2) supported by the two major partners, and (3) in the major
geographical areas in which the program was implemented. The results from the
sample cannot be projected to the universe of all service outlets on a statistical basis.
However, we believe that our work provides a reasonable basis for our conclusions.

We reviewed the agreements, progress reports, and work plans of the major
implementing partners and service providers that contributed results to the indicators we
tested. We reviewed applicable laws and regulations—as well as USAID policies and
procedures pertaining to USAID/Southern Africa’s prevention and care programs—
including the Federal Managers’ Financial Integrity Act of 1982 certification, 14 Automated
Directives System (ADS) chapters 202 and 203, and supplemental ADS guidance.

In the process of testing the results of the selected indicators at 16 service providers, we
conducted site visits at numerous other offices of implementing partners and U.S.
Government partners. These visits included interviews with USAID/Southern Africa’s
prevention and care team members, implementing partners, and service providers, as
well as a review of relevant documentation.




14
     31 U.S.C. 3512.



                                                                                         19
                                                                                   APPENDIX II



MANAGEMENT COMMENTS


DATE                 : April 23, 2010


TO                  : Regional Inspector General/Pretoria, Nathan S. Lokos


FROM                : USAID/Southern Africa, Mission Director, Jeff Borns /s/


SUBJECT             : USAID/Southern Africa’s Comments on Audit of
                      USAID/Southern Africa’s Regional HIV/AIDS Program in
                      Botswana (Report No: 4-464-10-00X-P)


This memorandum transmits the USAID/Southern Africa comments, dated April 23, 2010, on
the Regional Inspector General/Pretoria (RIG) Draft Report on the subject audit. These
comments are provided both in hard copy and electronic format.

On behalf of USAID/Southern Africa, I wish to express our sincere gratitude for RIG
conducting the audit and preparing the draft report for the purpose of strengthening
USAID/Southern Africa’s Regional HIV/AIDS Program in Botswana.

1. Audit Finding: Regional HIV/AIDS Program Management Status Not Defined

Audit Recommendation No 1: We recommend that USAID/Southern Africa define, in
writing, the respective authorities, responsibilities, and reporting structure for its
Regional HIV/AIDS program office and its Botswana-resident country director and
staff

USAID/Southern Africa agrees with Audit Recommendation No. 1 and acknowledges that
the respective authorities, responsibilities and reporting structure between USAID/Southern
Africa, particularly the Regional HIV/AIDS Program (RHAP) office, and the Botswana-
resident Country Director and staff needs to be better formulated and defined in writing.
USAID/Southern Africa notes, however, that the Personal Services Contract (PSC) of the
Botswana-resident Country Director does set forth in the Article I -Statement of Duties
substantial responsibilities, authorities and reporting requirements of the Botswana-resident
Country Director.

To meet this audit recommendation, USAID/Southern Africa will develop and issue a formal
delegation of authority from the USAID/Southern Africa Mission Director to the Botswana-
resident Country Director which will set forth in detail the roles, responsibilities, authorities



                                                                                               20
                                                                                APPENDIX II


and reporting requirements and structure between USAID/Southern Africa and the USAID
Office in Botswana. USAID/Southern Africa intends to issue this delegation of authority not
later than July 31, 2010 and has already begun meeting with the Botswana Country Director
and other staff of the USAID Office in Botswana to discuss in depth roles, responsibilities,
authorities and reporting requirements between USAID/Southern Africa and the USAID
Office in Botswana.

Prior to 2007, USAID/South Africa, through the RHAP office, had full responsibility for
development and implementation of the bilateral USAID HIV/AIDS program in Botswana.
At this juncture, there were no USAID employees in-country who were in a position to take
on HIV/AIDS program management responsibilities or authorities. In July 2007,
USAID/South Africa executed a Personal Services Contract (PSC) for a Country Director to
provide on the ground program management for the USAID HIV/AIDS program in
Botswana. Under the PSC, a number of program responsibilities, authorities and reporting
requirements of said Country Director were delineated in the scope of work. These
responsibilities and authorities include: providing program management for USAID funded
partners, including technical and administrative oversight and regular monitoring of
activities; technical oversight and project management to USAID funded activities; program
budgeting and financial monitoring, including the allocation of the USAID PEPFAR annual
budget among implementing partners, monitoring their expenditures ensuring maintenance of
reasonable pipelines, and preparing internal USAID documents (e.g., MAARDs);strategic
and program planning; policy dialogue; and development of community-based HIV/AIDS
prevention and care programs. The PSC specifically states that the contractor has no authority
to make commitments or obligations. All authorities and responsibilities relating to the
Botswana HIV/AIDS program not conveyed in the PSC scope of work were maintained by
RHAP or USAID/South Africa. The PSC requires the Country Director to report directly to
the Director of the RHAP office within USAID/Southern Africa.

While not addressing all of the items needed to be included in a delegation of authority, the
PSC Statement of Duties section does address some key areas of responsibility and authority
conferred to the Botswana Country Director. Accordingly, the PSC scope of work would be
referenced in the formal delegation of authority.


2. Audit Finding: Program Results Not Fully Supported

Audit Recommendation No 2: We recommend that USAID/Southern Africa develop
and implement a plan, with milestones, to train all implementing partners and service
providers for prevention and care services on how to properly maintain source
documents and accurately report program results

USAID/Southern Africa agrees with this audit recommendation.

In February 2010, the Botswana PEPFAR Strategic Information Team (which includes the
USAID Finance/M&E Officer) secured the services of MACRO International to train all
PEPFAR project managers, including USAID funded staff in Botswana, in data quality
assessments. The two week course included training on proper maintenance of source
documents and accurate reporting of program results.

Having now received this training, the USAID staff in Botswana is developing a training plan




                                                                                           21
                                                                                 APPENDIX II


for implementing partners that will specify the standards for maintaining documentation and
accurately reporting program results. Implementing partners are responsible for training the
local organizations that they fund to provide prevention and care services to members of local
communities. The training activities are included in the performance management plan that
will focus on clarifying and standardizing performance monitoring of the PEPFAR Next
Generation Indicators (NGI) that have been selected by USAID and the Botswana PEPFAR
Team. It is expected that the plan will be fully developed by July 2010, and training will be
completed by the end of the calendar year 2010.


3. Audit Finding: Performance Indicator Definitions Not Consistently Applied

Audit Recommendation No 3: We recommend that USAID/SA develop and implement a
plan, with milestones, to train all implementing partners and service providers for
prevention and care services in the Botswana HIV/AIDS program on how to correctly
apply performance indicator definitions when collecting, summarizing, and reporting
program results

USAID/Southern Africa agrees with this audit recommendation.

In February 2010, the Botswana PEPFAR Strategic Information Team (which includes the
USAID Finance/M&E Officer) secured the services of MACRO International to train all
PEPFAR project managers, including USAID staff in Botswana, in data quality assessments.
The two week course included training on how to correctly apply performance indicator
definitions when collecting, summarizing and reporting program results.

Following this training, all of the PEPFAR implementing partners working in treatment, care
and support attended a two day meeting on March 25-26, 2010 for an in-depth review of the
PEPFAR NGIs that have been selected for use by USAID and the Botswana PEPFAR Team.
The training reviewed how to apply each of the indicator definitions and how each program
would transition from the previous indicators that were being used to the NGIs. USAID
implementing partners are responsible for training the local organizations in how to apply
these new indicator definitions.

This same exercise is planned for PEPFAR implementing partners that work in the
prevention area. It is scheduled to take place by June 2010. These training activities will be
included in the performance management plan that will focus on clarifying and standardizing
performance monitoring of the PEPFAR NGIs. It is envisioned that the plan will be fully
developed by July 2010, and training will be completed by the end of the calendar year 2010.


4. Audit Finding: Performance Management Plan Not Completed

Audit Recommendation No 4: We recommend that USAID/SA prepare an updated
performance management plan for the Botswana HIV/AIDS program that is complete
and that contains all current performance indicators and reference sheets

USAID/Southern Africa agrees with this audit recommendation.

A performance management plan that contains all current PEPFAR NGI performance




                                                                                            22
                                                                                  APPENDIX II


indicators and reference sheets is being prepared. The plan also will include: a site visit
schedule for programmatic review; verification of reported results and the documentation of
site visits performed; the data quality assessment schedule; and, the training plans for USAID
staff, partners and service providers in how to properly maintain source documents and
accurately report program results and how to correctly apply performance indicator
definitions when collecting, summarizing and reporting program results of the PEPFAR NGIs
that have been selected by USAID and the Botswana PEPFAR Team. It is expected that the
plan will be fully developed by July 2010, and will be in use by the end of the calendar year
2010.


5. Audit Finding: Data Quality Assessments Not Completed

Audit Recommendation No 5: We recommend that USAID/Southern Africa complete
data quality assessments for the HIV/AIDS program indicators in Botswana in
accordance with the Automated Directives System (ADS) requirements

USAID/Southern Africa agrees with this audit recommendation.

USAID staff received preliminary training in February 2010, when the Botswana PEPFAR
Strategic Information Team (which includes the USAID Finance/M&E Officer) secured the
services of MACRO International to train all PEPFAR project managers in data quality
assessments (DQAs). The two week course included classroom training in the elements of a
data quality assessment and how to conduct one. It also provided practical training in
carrying out actual DQAs for indicators being reported by USAID and other Botswana
PEPFAR Team implementing partners. As part of the training, ten partners (five from
USAID and five from CDC) were visited and the DQA tool was applied to one indicator
being used by each respective partner.

Following this training, all of the PEPFAR implementing partners working in treatment, care
and support attended a two day meeting on March 25-26, for an in-depth review of the
PEPFAR Next Generation Indicators (NGI) that have been selected for use by USAID and
the Botswana PEPFAR Team and in how to carry out a data quality assessment and use the
results to improve the quality and reliability of the data being reported. This same exercise is
planned for PEPFAR implementing partners that work in the HIV/AIDS prevention area. It
is scheduled to take place by June 2010.

The USAID staffers in Botswana, who accompanied the auditors on their field visits to the
sites where the sub-partners were working, learned from the auditors how to go about
verifying that source documents were properly maintained, program results accurately
reported, and performance indicator definitions correctly applied. By participating in the data
quality assessment exercise that was carried out by the auditors, they received further training
in how to carry out the ADS requirements for DQAs. In addition to including funding in the
Botswana Country Operational Plan (COP) for FY 2010 to fund the MACRO International
technical assistance and training in conducting DQAs, the COP also includes funding for a
USAID/SA team to conduct DQAs of additional USAID implementing partners in Botswana.
This DQA exercise is included in the performance management plan which is under
development. The DQA will assess the new PEPFAR NGI performance indicators that were
officially changed in October 2009. It is anticipated that the plan will be fully developed by
July 2010, and fully completed, including the additional DQA to be carried out by




                                                                                              23
                                                                               APPENDIX II


USAID/Southern Africa, by the end of calendar year 2010.


6. Audit Finding: Thorough Site Visits Not Conducted

Audit Recommendation No 6: We recommend that USAID/Southern Africa develop
and implement a risk-based monitoring plan for its Botswana HIV/AIDS activities that
includes regular site visits involving programmatic review, verification of reported
results, and the documentation of site visits performed

USAID/Southern Africa agrees with this audit recommendation.

A performance management plan that contains all current PEPFAR NGI performance
indicators and reference sheets is being prepared. The plan will also include a site visit
schedule for programmatic review, verification of reported results and the documentation of
site visits performed. USAID/Southern Africa expects that the plan will be fully developed
July 2010 and fully operational by the end of calendar year 2010.




                                                                                          24
                                                                                 APPENDIX III




                      USAID/Southern Africa
         Summary of Botswana HIV/AIDS Prevention and Care
            Program Performance for Fiscal Year 2009



                                                                   FY 2009         FY 2009
    Performance Indicator From Partner Work Plans
                                                                   Target+         Reported
    1. Number of people reached through community
    outreach that promotes HIV/AIDS prevention through              10,000          18,105++*
    abstinence or being faithful
    2. Number of individuals trained in HIV/AIDS
                                                                      326             332*
    prevention and program delivery
    3. Number of orphans and vulnerable children (OVC)
    served by an OVC program, data disaggregated by                 3,717            3,835*
    sex
    4. Number of providers/caretakers trained in caring
                                                                    1,125            1,023*
    for OVC
    5. Number of individuals trained to provide treatment
                                                                      802             288**
    access and adherence support to children
    6. Number of individuals provided with general HIV-
                                                                    3,742            1,924*
    related palliative care during the reporting period
    7. Number of individuals trained to provide general
                                                                    1,248             383*
    HIV-related palliative care during the reporting period
    8. Number of individuals trained to provide treatment
    access and adherence support to palliative care                   939             219**
    clients

Sources: Select USAID/Southern Africa’s Botswana implementing partner work plans and
annual progress reports.
+
   The FY 2009 targets were established at the start of the prevention and care activities and
   were to be adjusted in the subsequent round of implementing partner annual work plans.
++
   This number excludes 6,327 individuals who were reported as being reached through
   outreach that promotes other prevention methods.
* The validity and reliability of these results could not be confirmed.
** Not audited.




                                                                                                 25
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel.: 202–712–1150
            Fax: 202–216–3047
            www.usaid.gov/oig
